IN THE
SUPREME COURT OF THE UNITED STATES
No. ____________

OCTOBER TERM, 2020
_________________________________

LUIS BERNAL-VILLAREAL,
Petitioner,
- vs UNITED STATES OF AMERICA,
Respondent.
_________________________________

PETITION FOR WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

GARY PAUL BURCHAM
BURCHAM & ZUGMAN
402 West Broadway, Suite 1130
San Diego, CA 92101
Telephone: (619) 699-5930
Attorney for Petitioner

QUESTION PRESENTED FOR REVIEW
Whether, in a drug importation offense, managers and
supervisors of the offense should be considered “average
participants” for purposes of a USSG § 3B1.2 minor role
analysis.

- Prefix -

TABLE OF CONTENTS
Authorities Cited . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
Question Presented for Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Prefix
Petition for Writ of Certiorari. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Jurisdiction and Citation of Opinion Below . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
U.S. Sentencing Guideline Provision at Issue . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Statement of the Case . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Argument . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
THE COURT SHOULD GRANT THIS PETITION TO
CORRECT THE DISTRICT COURT’S IMPROPER
USSG § 3B1.2 ANALYSIS AND PROVIDE GUIDANCE
TO LOWER COURTS REGARDING HOW TO
PROPERLY FORMULATE THE “AVERAGE
PARTICIPANT” COMPARISON GROUP FOR A
MINOR ROLE ANALYSIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
A. Managers/Supervisors are Average Participants for
Purposes of a Minor Role Analysis in a Drug Importation
Offense . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
B. Using a Proper Comparison Group, Petitioner was
Entitled to a Minor Role Reduction. . . . . . . . . . . . . . . . . . . . . . . . . . 16
Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Appendix: Ninth Circuit Court of Appeals Memorandum

i

TABLE OF AUTHORITIES
CASES
United States v. Diaz, 884 F.3d 911 (9th Cir. 2018) . . . . . . . . . . . . . . . . . . . . . . . 16
United States v. Quintero-Leyva, 823 F.3d 519 (9th Cir. 2016) . . . . . . . . . . . . . . . 3
STATUTES
21 U.S.C. § 952 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
21 U.S.C. § 960 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
28 U.S.C. § 1254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
U.S. SENTENCING GUIDELINES PROVISIONS AND MATERIALS
USSG § 3B1.2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2-4,12-14,16
USSG § 3B1.2 cmt. n.3(A). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
USSG § 3B1.2 cmt. n.3(C) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2,6,18
USSG App. C. Amend. 794 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3,17
U.S. Sentencing Comm’n, Report to Congress: Mandatory Minimum
Penalties in the Federal Criminal Justice System at 165-67 & app. H
(Oct. 2011) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13-17
U.S. Sentencing Comm’n, Report to the Congress: Cocaine and
Federal Sentencing Policy at 17-18, app. C tbl. A-1 (May 2007) . . . . . . . 13-15,17

ii

No. ____________

OCTOBER TERM, 2020
_________________________________

LUIS BERNAL-VILLAREAL,
Petitioner,
- vs UNITED STATES OF AMERICA,
Respondent
_________________________________

PETITION FOR WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

Petitioner respectfully prays that a writ of certiorari issue to review the
judgment of the United States Court of Appeals for the Ninth Circuit entered on
January 29, 2021.

JURISDICTION AND CITATION OF OPINION BELOW
On January 29, 2021, the Ninth Circuit affirmed Petitioner’s conviction
in an unpublished Memorandum opinion, attached in an appendix to this petition.
This Court has jurisdiction to review the Ninth Circuit's decision pursuant to 28
U.S.C. § 1254.
U.S. SENTENCING GUIDELINE PROVISION AT ISSUE
USSG §3B1.2 - MITIGATING ROLE
Based on the defendant’s role in the offense, decrease the
offense level as follows:
(a) If the defendant was a minimal participant in any
criminal activity, decrease by 4 levels.
(b) If the defendant was a minor participant in any criminal
activity, decrease by 2 levels.
In cases falling between (a) and (b), decrease by 3 levels.
...
Application Note 3(A):
Substantially Less Culpable than Average
Participant.—This section provides a range of adjustments
for a defendant who plays a part in committing the offense
that makes him substantially less culpable than the average
participant in the criminal activity.

2

INTRODUCTION
Petitioner asks this Court to grant review in the instant case to decide an
important issue regarding the application of USSG § 3B1.2, a Guidelines provision
which has tremendous effects on federal drug sentences. Section 3B1.2 provides “a
range of adjustments for a defendant who plays a part in committing the offense that
makes him substantially less culpable than the average participant in the criminal
activity.” USSG § 3B1.2 cmt. n. 3(A). While the Sentencing Commission recently
has provided guidance to assist courts in making role determinations generally, see
USSG App. C. Amend. 794; USSG § 3B1.2, cmt. n.3(C) (setting forth list of nonexhaustive factors to be considered in determining whether a defendant qualifies for
a role reduction), and also clarified that the defendant is to be compared with the
other participants “in the criminal activity” as opposed to hypothetical typical
offenders, id.; United States v. Quintero-Leyva, 823 F.3d 519, 523 (9th Cir. 2016)
(same), the Commission failed to provide guidance as to how the “average
participant” comparative group within an offense should be formulated.
In the instant case, the district court ruled that the person who recruited
Petitioner to participate in the drug importation offense, and who occupied the role
of a local manager/supervisor of the smuggling endeavor, was not an average
participant for the minor role analysis. This position is in direct conflict with the
3

Commission’s findings where it determined that managers/supervisors of a drug
offense landed in the middle of the hierarchy of participants in such an offense,
thereby qualifying as “average participants.” See U.S. Sentencing Comm’n, Report
to Congress: Mandatory Minimum Penalties in the Federal Criminal Justice System
at 165-67 & app. H (Oct. 2011). By formulating its comparison group in a way so as
to exclude any participant who was above Petitioner in the offense hierarchy,
including the manager/supervisor involved in this offense, the district court
conducted a fundamentally flawed analysis which made it impossible for Petitioner
to obtain a minor role adjustment. Petitioner asks the Court to grant this petition in
order to correct the district court’s improper minor role analysis in this case, and to
provide lower courts guidance as to the proper formulation of a section 3B1.2
“average participant” comparison group in a drug case.
STATEMENT OF FACTS AND CASE
In July 2019, Petitioner was arrested after importing 45.16 kilograms of
methamphetamine into the United States in a vehicle which he was driving.
Petitioner pled guilty to a charge of importing methamphetamine, in violation of 21
U.S.C. §§ 952 and 960, pursuant to a written plea agreement. [ER 43-56]. Prior to
sentencing and in connection with safety-valve relief, Petitioner submitted to the
government a detailed proffer of what occurred in connection with the offense. He
4

then summarized the proffer in his sentencing memorandum:
Mr. Bernal-Villareal’s involvement in this case began
when he was talking with an old acquaintance from school
he knew as Nacho . . . . While they were talking, Mr.
Bernal-Villareal described his difficult financial situation
which was due to severe difficulties he and his father were
having getting their crops to market. Nacho offered Mr.
Bernal-Villareal an opportunity to earn money smuggling
a quantity of drugs. He did not tell Mr. Bernal-Villareal
the type or quantity of drugs he would be bringing across.
He offered Mr. Bernal-Villareal $8000 if he would
participate, and said they would use his vehicle to do so.
Mr. Bernal-Villareal said he needed to think about it.
A few days later, Nacho called Mr. Bernal-Villareal to
again extend the offer to him. After a discussion during
which Nacho again tried to convince Mr. Bernal-Villareal
to participate, he agreed. Another person picked up Mr.
Bernal-Villareal’s vehicle (three days prior to his arrest),
and said he was going to take it to San Luis, Mexico, to be
prepared. The day prior to his arrest, this same person
called Mr. Bernal-Villareal and told him that his car was
ready. He gave Mr. Bernal-Villareal the location where the
vehicle was parked in San Luis, and instructed him to come
pick it up and then drive it across the border.
Mr. Bernal-Villareal did as directed and got a ride to San
Luis, Mexico. His vehicle was at the location, and he
drove it to the San Luis port. The port had been closed due
to what he heard was some sort of security threat, however,
so he called to ask what to do. The man told Mr. BernalVillareal to bring his pick-up to a home near Los
Algodones, Mexico, which he did. A man at that location
told him they were going to keep his vehicle overnight at
that location, and he should come back the next morning to
drive it across. Mr. Bernal-Villareal called a family
5

member for a ride home (no knowledge of what was
happening), and then obtained a ride back the next morning
as instructed. Mr. Bernal-Villareal then drove to the
Andrade POE and was arrested. Had Mr. Bernal-Villareal
made it across, he was directed to park and wait after
crossing the border to receive further instructions. This
was the first time Mr. Bernal-Villareal had ever attempted
to smuggle drugs.
[ER 34-35].1
Because the government found that Petitioner had been truthful in his
recitation of his involvement in the offense, and that he otherwise satisfied the safetyvalve requirements under the First Step Act, it recommended a two-level reduction
for safety-valve. The government did not, however, recommend a minor role
reduction. Petitioner moved the district court for a minor role reduction, arguing that
the USSG § 3B1.2, cmt. n.3(C) factors, applied to the undisputed facts of this case,
strongly weighed in favor of a two-level minor role adjustment by showing that
Petitioner was substantially less culpable than the average participant in the offense.
[ER 33-39].
The district court denied a minor role adjustment:
THE COURT: SO THE COURT'S RECITED THE
STANDARD. LET ME AT LEAST MENTION THE 3(B)
FACTORS: THE DEGREE OF WHICH THE
“ER” denotes the excerpts of record filed by Appellant in the Ninth Circuit
Court of Appeals.
1

6

DEFENDANT UNDERSTOOD THE SCOPE AND
STRUCTURE OF THE CRIMINAL ACTIVITY. MR.
BURCHAM HAS CANDIDLY SAID THE DISCUSSION
OF THIS CRIME BEGAN AT LEAST A WEEK, MORE
LIKE TEN DAYS BEFORE. THE DEFENDANT
CONSENTED TO IT. HE HAD A WEEK TO THINK
ABOUT THIS AND CONSIDER THE RISKS. HE WENT
FORWARD. DID HE KNOW THE SCOPE AND
STRUCTURE OF THE CRIMINAL ACTIVITY? THE
CRIMINAL ACTIVITY HERE IS IMPORTING
NARCOTICS.
HERE IS WHAT HE KNEW: THAT A DRUG
ORGANIZATION WAS COMMISSIONING HIM,
PROMISING TO PAY HIM $8,000, THAT HIS JOB
WAS TO GET THE DRUGS ACROSS IN A VEHICLE,
THAT THEY WOULD ALTER HIS VEHICLE AND PUT
A COMPARTMENT IN SO THE DRUGS WOULDN'T
BE READILY DETECTED, THAT ALL HE HAD TO DO
WAS DRIVE ACROSS; THEY GIVE HIM A PHONE
AND TOLD HIM HE WOULD GET FURTHER
INSTRUCTIONS WHEN HE GETS ACROSS. THOSE
ARE ALL THINGS THAT AN IMPORTER WOULD
KNOW. THERE'S NOTHING ABOUT HIS
K N O WL E D G E I N T H I S C A S E O R H I S
UNDERSTANDING OF THE OPERATION THAT
SUGGESTS THAT HE'S A MINOR PARTICIPANT,
THAT HE DIDN'T FULLY UNDERSTAND THE SCOPE
AND STRUCTURE OF THE CRIMINAL ACTIVITY
FOR WHICH HE WAS COMMISSIONED.
THE DEGREE TO WHICH HE PARTICIPATED IN THE
PLANNING: HE AGREED TO THE AMOUNT, HE
AGREED TO TURN HIS CAR OVER, HE TURNED HIS
TRUCK OVER, THEY FABRICATED I ASSUME BY
WELDING A COMPARTMENT IN IT, INTO WHICH
THE DRUGS WERE STUFFED, HE TOOK THE
7

PHONE, HE WAS WILLING TO GET FURTHER
INSTRUCTIONS FROM THEM. DO I THINK THAT HE
WAS THE DESIGNER OF THIS OFFENSE? NO, I
DON'T. BUT HE FULLY PARTICIPATED IN THE
PLANNING AND WAS WILLING TO TAKE STEPS
THAT WOULD HELP TO ENSURE THAT THE PLAN
WOULD SUCCEED.
THE THIRD FACTOR FAVORS HIM. HE DIDN'T
HAVE ANY DECISION-MAKING AUTHORITY HERE
OTHER THAN TO BE INVOLVED. I DON'T THINK
THAT'S WHAT'S IMPLICATED HERE, BUT HE
DIDN'T TRY TO INFLUENCE ANYBODY AND THE
PLAN DIDN'T ORIGINATE WITH HIM. THAT DOES
FAVOR THE MINOR ROLE APPLICATION.
THE FOURTH FACTOR, THE NATURE AND EXTENT
OF HIS PARTICIPATION: THIS IS WHERE I THINK
THE TIME PERIOD BETWEEN WHEN THE IDEA IS
FIRST FLOATED AND ACCEPTED AND THEN THE
CRIME TAKES PLACE COMES INTO PLAY. IT'S A
CONCEPT OF PREMEDITATION AND
DELIBERATION AND ABILITY TO THINK THINGS
THROUGH IN AN ATMOSPHERE WHERE YOU'RE
NOT BEING PRESSURED BY SOMEONE. HE
CERTAINLY HAD THAT. HE HAD THE ABILITY TO
REFLECT ON THIS AND TO UNDERSTAND WHAT
THE RISK WAS, AND HE WENT FORWARD.
THIS IS AN ANALOGY, MR. BURCHAM, THAT I
USED AND I FIND USEFUL HERE. IT HAS NOTHING
TO DO WITH YOUR CLIENT, BUT THE ANALOGY IS
A USEFUL ONE. THERE'S DEGREES OF HOMICIDE.
SOMEONE GUILTY OF A FIRST DEGREE MURDER
IS GUILTY OF THAT HIGH-DEGREE OF HOMICIDE
BECAUSE THEY PREMEDITATE AND DELIBERATE
AND SET UP AN AMBUSH; THEY WATCH A
8

PERSON AND KNOW WHERE THEY'RE GOING AND
WAIT AND KILL THEM. THERE'S OTHER
HOMICIDES. THE PERSON IS JUST AS DEAD.
VOLUNTARY MANSLAUGHTER; I'M ANGRY AT A
GUY AND I SLUG HIM AND HE HITS HIS HEAD ON
A CURB AND DIES. THE DIFFERENCE BETWEEN
THE TWO HOMICIDES -- AS I SAID, IN EACH CASE,
THE PERSON IS JUST AS DEAD. BUT IN THE
FORMER EXAMPLE, THE PERSON HAS A CHANCE
TO THINK ABOUT IT AND PLAN AND CONSIDER
AND RECONSIDER. AND THE LAW RECOGNIZES
THAT THERE'S SOMETHING TOXIC ABOUT THAT,
RIGHT? AND IT MAKES YOUR ROLE – EVEN
THOUGH THE END RESULT IS THE SAME, IT
MAKES YOUR ROLE WORSE. IT MAKES YOUR
ROLE MORE CULPABLE.
SO IT IS HERE. THE LONGER THE PERIOD OF TIME
FOR CONTEMPLATION AND DISCUSSION AND
LETTING PRELIMINARY ACTS OCCUR CERTAINLY
NEEDS TO BE TAKEN INTO CONSIDERATION IN
ASSESSING SOMEONE'S ROLE. AND FINALLY, IF
IT'S TRUE, AND YOU SAY YOU DON'T THINK THEY
WOULD HAVE PAID HIM THAT AMOUNT, THEY
OFFERED HIM THAT AMOUNT, AND HE
OBVIOUSLY THOUGHT HE WAS GOING TO GET
$8,000. THAT'S A LARGE AMOUNT OF MONEY.
THESE ARE NON-EXCLUSIVE FACTORS. I'M
SHOCKED AT THE AMOUNT OF
METHAMPHETAMINE,
ACTUAL
METHAMPHETAMINE THEY'RE PUTTING INTO THE
AUTOMOBILES THESE DAYS. YOU SAY IT WAS 38
KILOS HERE?
MR. BURCHAM [Defense Counsel]: I BELIEVE SO,
YES.

9

THE COURT: AND YOU KNOW THE STATISTICS ON
THIS. EACH KILO PRODUCES 10,000 INDIVIDUAL
ADMINISTRATIONS OF THIS DRUG SO WE'RE
TALKING ALMOST 400,000 TIMES THAT AN
ADDICT WOULD BE ABLE TO SHOOT UP IF HE HAD
SUCCEEDED WITH THIS LOAD. SO THE
CONSEQUENCES FOR THE COMMUNITY -- I'M NOT
GOING TO PROSELYTIZE OR GO OVER ALL THOSE
AT THIS POINT -- BUT THE CONSEQUENCES FOR
THE COMMUNITY ARE REALLY DIRE AND THOSE
HAVE TO BE CONSIDERED TOO. I DON'T FIND BY
A PREPONDERANCE OF THE EVIDENCE THAT THE
DEFENDANT CONVINCED ME THAT HE'S
SUBSTANTIALLY LESS CULPABLE THAN THE
AVERAGE PARTICIPANT.
THE PEOPLE THAT I COMPARED HIM TO IS, OF
COURSE, NACHO WHO IS, OF COURSE, NOT AN
AVERAGE PARTICIPANT. NACHO PROPOSES THIS,
PRESUMABLY ORCHESTRATES GETTING THE
DRUGS IN THE CAR, OFFERS HIM THE AMOUNT OF
MONEY, GIVES HIM THE PHONE; THAT GUY IS AT
A MINIMUM AN ORGANIZER, LEADER,
SUPERVISOR. SO I CAN COMPARE HIM, BUT IT
DOESN'T MOVE THE NEEDLE AT ALL BECAUSE
HE'S NOT AN AVERAGE PARTICIPANT, AND THE
POINT OF COMPARISON HERE IS OTHER AVERAGE
PARTICIPANTS.
PEOPLE FABRICATED, PEOPLE FABRICATED, AND
I DON'T THINK NACHO DID IT, PEOPLE
FABRICATED THE COMPARTMENT IN THE TRUCK.
I GET THEY'RE LIKELY PARTICIPANTS. I DON'T
THINK HE'S SUBSTANTIALLY LESS CULPABLE
THAN THEY ARE. THAT'S ESSENTIALLY A BLUE
COLLAR FUNCTION THAT OCCURRED IN MEXICO.
THEN FINALLY, SOMEONE IS SUPPOSED TO PICK
10

UP THE DRUGS ON THE OTHER SIDE. WHAT DO I
KNOW ABOUT THEM? NOT MUCH. AS FAR AS I
CAN TELL, THEY ARE NO MORE CULPABLE BUT
NO LESS CULPABLE THAN THE DEFENDANT. THEY
ARE OTHER LINKS IN THE CHAIN OF
DISTRIBUTION.
SO I UNDERSTAND YOUR POSITION, AND I DON'T
FAULT YOU FOR ASKING, BUT I DON'T FIND BY A
PREPONDERANCE OF THE EVIDENCE THAT THE
DEFENDANT IS A MINOR PARTICIPANT. I'M HAPPY
TO HEAR FROM YOU GENERALLY.
[ER 10-14].
The district court imposed a sentence of 78 months in custody, to be
followed by five years of supervised release.
On direct appeal, Petitioner challenged the district court’s denial of a
minor role adjustment. Specifically, Petitioner claimed that the district court
improperly

formulated

the comparison

group

by excluding

the local

manager/supervisor and other persons who were more culpable than Petitioner from
the group, thereby resulting in an improperly skewed comparative analysis. Petitioner
claimed that under this approach, all drug couriers would be precluded from receiving
a minor role reduction because anyone higher in the organizational hierarchy would
be excluded from comparison.
The Ninth Circuit rejected this argument, finding that the “district court

11

properly identified other likely participants in the scheme and assessed whether
Bernal-Villareal was ‘substantially less culpable than the average participant in the
criminal activity.” [Ex. “A” at 2]. It further found that the record did not support the
claim that the district court’s “approach to the minor-role analysis categorically
precludes all drug couriers from receiving a minor role adjustment.” Id.
ARGUMENT
THE COURT SHOULD GRANT THIS PETITION TO CORRECT THE
DISTRICT COURT’S IMPROPER USSG § 3B1.2 ANALYSIS AND
PROVIDE GUIDANCE TO LOWER COURTS REGARDING HOW TO
PROPERLY FORMULATE THE “AVERAGE PARTICIPANT”
COMPARISON GROUP FOR A MINOR ROLE ANALYSIS
A.

Managers/Supervisors are Average Participants for
Purposes of a Minor Role Analysis in a Drug
Importation Offense
Section 3B1.2(b) of the U.S. Sentencing Guidelines provides for a

two-level reduction in a defendant’s sentence “[i]f the defendant was a minor
participant in any criminal activity.” USSG § 3B1.2(b). In determining whether to
grant a minor-role reduction, the correct inquiry is whether the defendant was
“substantially less culpable than the average participant” in the charged criminal
activity. USSG § 3B1.2 cmt. n.3(A).
When a district court conducts an assessment of whether a defendant
should receive a role reduction because he was “substantially less culpable than the
12

average participant,” the court must compare the defendant only with the other
participants “in the criminal activity.” Id. Thus, the relative culpability of the
“average participant” is measured only in comparison to those persons who actually
participated in the criminal activity, rather than against typical offenders who commit
similar crimes.
In terms of identifying the “average participants” for purposes of a
section 3B1.2 analysis, the Sentencing Commission ranked the roles of participants
in drug trafficking organizations as part of reports to Congress in 2007 and 2011. In
the Sentencing Commission’s 2011 report to Congress regarding mandatory minimum
penalties, the Commission assigned each offender in a drug case to one of 21 separate
function categories based on his or her most serious conduct as described in the presentence report. See U.S. Sentencing Comm’n, Report to Congress: Mandatory
Minimum Penalties in the Federal Criminal Justice System at 165-67 & app. H (Oct.
2011). These 21 categories were then combined into nine categories to facilitate
analysis and presentation of the data, and the categories below represent a list of
culpability, from most-culpable to least-culpable:
• High-Level Suppler/Importer: Imports or supplies large
quantities of drugs (one kilogram or more); is near the top
of the distribution chain; has ownership interest in the
drugs; usually supplies drugs to other drug distributors and
generally does not deal in retail amounts.
13

• Organizer/Leader: Organizes or leads a drug distribution
organization; has the largest share of the profits; possesses
the most decision-making authority.
• Grower/Manufacturer: Cultivates or manufactures a
controlled substance and is the principal owner of the
drugs.
• Wholesaler: Sells more than retail/user-level quantities
(more than one ounce) in a single transaction, purchases
two or more ounces in a single transaction, or possesses
two ounces or more on a single occasion, or sells any
amount to another dealer for resale.
• Manager/Supervisor: Takes instruction from higher-level
individual and manages a significant portion of drug
business or supervises at least one other coparticipant but
has limited authority.
• Street-Level Dealer: Distributes retail quantities (less
than one ounce) directly to users.
• Broker/Steerer: Arranges for drug sales by directing
potential buyers to potential sellers.
• Courier: Transports or carries drugs using a vehicle or
other equipment.
• Mule: Transports or carries drugs internally or on his or
her person.
Id.
The 2007 report found similarly with regard to the comparative role of
a local manager or supervisor who “[t]akes instruction from higher-level individual
14

and manages a significant portion of drug business or supervises at least one other
coparticipant but has limited authority.” See U.S. Sentencing Comm’n, Report to the
Congress: Cocaine and Federal Sentencing Policy at 17-18, app. C tbl. A-1 (May
2007). There, the Commission found that a “manager/supervisor” was the fourth
most culpable out of eight offender functions. Id. It found that an organizer/leader
was the second most culpable. Id.
These findings by the Commission directly refute the district court’s
conclusion that the person who recruited and directed Petitioner was not an average
participant for purposes of a minor role analysis. The Commission clearly and
substantially distinguished between a manager/supervisor and an organizer/leader,
putting the former in the middle of the participant hierarchy, and the latter near the
top. U.S. Sentencing Comm’n, Report to Congress: Mandatory Minimum Penalties
in the Federal Criminal Justice System at 165-67 & app. H (Oct. 2011). The district
court, however, conflated an organizer/leader with a manager/supervisor, [ER 13-14],
which resulted in the creation of a flawed comparison group which excluded average
participants such as managers or supervisors from the pool of comparative players.
And by creating a comparison group in which participants who fell in the middle of
the participant hierarchy were excluded from consideration, the district court applied
section 3B1.2 in a manner which made it impossible for Petitioner, who as a drug
15

courier fell at the bottom of the culpability spectrum, to receive the minor role
reduction to which he was entitled.
B.

Using a Proper Comparison Group, Petitioner was
Entitled to a Minor Role Reduction
“When measuring a defendant’s culpability relative to that of other

participants, district courts must compare the defendant’s involvement to that of all
likely participants in the criminal scheme.” United States v. Diaz, 884 F.3d 911, 917
(9th Cir. 2018). Had the district court formulated a proper comparison group for its
minor role analysis, Petitioner would have been entitled to a section 3B1.2 reduction.
When the correct average participants are included in the comparison group,
including Petitioner’s recruiter and the local director of this offense (Nacho) and
other local participants (such as the blue-collar participants) who were taking
“instruction from higher-level individual[s]” or “supervis[ing] at least one other
coparticipant but [with] limited authority,” U.S. Sentencing Comm’n, Report to
Congress: Mandatory Minimum Penalties in the Federal Criminal Justice System
165-67, Petitioner was substantially less culpable than these other participants.
The Commission reports also illustrate the unreasonableness of the
district court’s approach in terms of concluding where Petitioner fell in terms of his
role in this offense. The October 2011 report listed drug couriers like Petitioner as

16

eighth in a nine-level hierarchy, with only body-carrier mules below them at the
bottom level. See U.S. Sentencing Comm’n, Report to Congress: Mandatory
Minimum Penalties in the Federal Criminal Justice System at 165-67 (Oct. 2011).
The 2007 report listed couriers/mules as seventh out of eight types of offenders. See
U.S. Sentencing Comm’n, Report to the Congress: Cocaine and Federal Sentencing
Policy at 18 (May 2007). But as set forth above, the fact that typical drug couriers are
at the bottom of the function spectrum cannot properly factor into a minor role
analysis when every participant who is located above them is determined not to be
average and is excluded from the analysis.
Applying the facts of this case to the Amendment 794 factors further
supports a minor role application here. The Sentencing Commission promulgated
these factors because “after conducting an independent review, it found that minor
role reductions were being ‘applied inconsistently and more sparingly than the
Commission intended.’” See USSG App. C. Amend. 794. This Amendment provides
that “[i]n determining whether to apply subsection (a) or (b), or an intermediate
adjustment, the court should consider the following non-exhaustive list of factors[:]”
(i) the degree to which the defendant understood the scope
and structure of the criminal activity;
(ii) the degree to which the defendant participated in
planning or organizing the criminal activity;
17

(iii) the degree to which the defendant exercised
decision-making authority or influenced the exercise of
decision-making authority;
(iv) the nature and extent of the defendant’s participation
in the commission of the criminal activity, including the
acts the defendant performed and the responsibility and
discretion the defendant had in performing those acts;
(v) the degree to which the defendant stood to benefit from
the criminal activity.
For example, a defendant who does not have a proprietary
interest in the criminal activity and who is simply being
paid to perform certain tasks should be considered for an
adjustment under this guideline.
The fact that a defendant performs an essential or
indispensable role in the criminal activity is not
determinative.
Such a defendant may receive an
adjustment under this guideline if he or she is substantially
less culpable than the average participant in the criminal
activity.
USSG § 3B1.2, cmt. n.3(C).
Each of these factors strongly supports a minor role adjustment in this
case. Petitioner lacked any knowledge of the scope and structure of this activity
beyond the basis tasks which he was asked to perform, he neither planned nor
organized the smuggling event, and he had absolutely no decision-making authority
or ability to influence decision-making. His actions in furtherance of the endeavor
were limited and rudimentary, and he was going to be paid a set sum of money to
18

drive the vehicle across the border. Because the undisputed facts of this case firmly
establish that Petitioner was substantially less culpable than the average participant
in this offense, the Ninth Circuit’s decision affirming the district court’s denial of this
adjustment should be denied.
CONCLUSION
For the above reasons, Petitioner respectfully requests that the Court
grant the instant petition to review the decision of the Ninth Circuit Court of Appeals.
Respectfully submitted,

Dated: June 15, 2021

/s/ Gary P. Burcham
GARY PAUL BURCHAM
BURCHAM & ZUGMAN
402 West Broadway, Suite 1130
San Diego, CA 92101
Telephone: (619) 699-5930
Attorney for Petitioner

19

